No. 20-1006
______________________________________________________________
IN THE
SUPREME COURT of the UNITED STATES
_________________♦_________________
CITY OF HAYWARD, A MUNICIPAL
CORPORATION, et al.,
Petitioners,
vs.
JESSIE LEE JETMORE STODDARD-NUNEZ,
Respondent.
_________________♦_________________
On Petition For Writ Of Certiorari
To The United States Court Of Appeals
For The Ninth Circuit
_________________♦_________________
MOTION FOR LEAVE TO FILE BRIEF OF AMICUS CURIAE AND BRIEF
OF AMICUS CURIAE INTERNATIONAL MUNICIPAL LAWYERS
ASSOCIATION IN SUPPORT OF PETITIONERS
_________________♦_________________
Timothy T. Coates
Counsel of Record
Nadia A. Sarkis
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com
Counsel for Amicus Curiae International Municipal
Lawyers Association

i
MOTION FOR LEAVE TO FILE BRIEF OF AMICUS CURIAE
INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION
Pursuant to Supreme Court Rule 37.2(b), the International Municipal
Lawyers Association (“IMLA”) respectfully moves the Court for leave to file the
attached amicus brief in support of Petitioners.
The Petition presents this Court with the opportunity to resolve a longstanding circuit split: Whether a victim-passenger who is unintentionally shot by a
police officer during an effort to stop the vehicle’s driver is “seized” for purposes of
the Fourth Amendment. As the oldest and largest association of attorneys
representing United States municipalities, counties, and special districts, IMLA has
an interest in ensuring clarity of the law on this issue, which significantly impacts
liability on public entities.
IMLA’s mission is to advance the responsible development of municipal law
through education and advocacy, by providing the collective viewpoint of local
governments around the country on legal issues before the United States Supreme
Court, the United States Courts of Appeals, and in state supreme and appellate
courts. Because its members routinely face Fourth Amendment litigation, IMLA is
well-suited to provide this Court with practical insight regarding the adverse
impacts of this circuit split on municipalities, which include protracted litigation,
increased costs, and difficulty in assessing and planning for potential liability.

ii
IMLA timely notified the parties of its intent to submit its amicus brief more
than 10 days prior to filing, and requested consent to the filing. Petitioners
consented to the filing of this brief, and Respondent did not. IMLA respectfully
moves the Court for leave to file the attached amicus brief in support of Petitioners.
Respectfully submitted,
Timothy T. Coates
Counsel of Record
Nadia A. Sarkis
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com
Counsel for Amicus Curiae International Municipal Lawyers
Association
February 24, 2021

iii
QUESTIONS PRESENTED
1.

Whether an accelerating fleeing driver’s sudden turn deprives a

threatened shooting officer of qualified immunity?
2.

Whether an unintended victim-passenger of a fleeing vehicle is “seized”

for purposes of the Fourth Amendment?

iv
TABLE OF CONTENTS
Page
MOTION FOR LEAVE TO FILE BRIEF OF AMICUS CURIAE
INTERNATIONAL MUNICIPAL LAWYERS ASSOCIATION

i

QUESTIONS PRESENTED

iii

TABLE OF AUTHORITIES

v

STATEMENT OF IDENTITY AND INTEREST OF THE AMICUS CURIAE/

1

STATEMENT OF THE CASE

1

SUMMARY OF ARGUMENT

2

WHY REVIEW IS WARRANTED

4

I.

The Fourth Amendment Question Presented Is The Subject Of A
Persistent And Acknowledged Split Among The Courts Of Appeals.
A.

II.

III.

4

The First, Second, and Tenth Circuits Hold That VictimPassengers Inadvertently Harmed By The Use Of Force
Directed At Another Party Cannot Recover Under A Fourth
Amendment Theory.

4

B.

The Third, Sixth, Ninth, and Eleventh Circuits Embrace The
Opposite Rule.

5

C.

The Court Of Appeals’ Confusion Is Rooted In Competing
Interpretations Of This Court’s Precedent.

7

The Question Presented Is Recurring And Spawns Protracted
Litigation That Increases Costs To Public Entities, Making It Difficult
To Assess And Plan For Potential Liability.

8

This Case Is An Ideal Vehicle To Resolve The Question Presented.

CONCLUSION

10
11

v
TABLE OF AUTHORITIES
Page(s)
Cases
Brendlin v. California,
551 U.S. 249 (2007)

6-7

Brower v. County of Inyo,
489 U.S. 593 (1989)

4, 8

Childress v. City of Arapaho,
210 F.3d 1154 (10th Cir. 2000)

5-6, 8

Claybrook v. Birchwell,
199 F.3d 350 (6th Cir. 2000)

6

Cox v. Village of Pleasantville,
271 F. Supp. 3d 591 (S.D.N.Y. 2017)

7

Davenport v. Borough of Homestead,
870 F.3d 273 (3d Cir. 2017)

5

Emanuel v. District of Columbia,
224 Fed. Appx. 1 (D.C. Cir. 2007)

5

Fagre v. Parks,
2020 WL 1066977 (D. Me. 2020), aff’d __ F.3d __ (1st Cir. 2021)

7-8

Fisher v. City of Memphis,
234 F.3d 312 (6th Cir. 2000)

6

Jurado v. Tritschler,
2020 WL 209857 (D. Colo. Jan. 14, 2020)

8

Landol-Rivera v. Cruz Cosme,
906 F.2d 791 (1st Cir. 1990)

4-6, 8

Medeiros v. O’Connell,
150 F.3d 164 (2d Cir. 1998)

4, 6, 8

Moore v. Indehar,
514 F.3d 756 (8th Cir. 2008)
Plumhoff v. Rickard,
572 U.S. 765 (2014)

5
2, 7

vi
TABLE OF AUTHORITIES
Page(s)
Rucker v. Harford County,
946 F.2d 278 (4th Cir. 1991)

5

Tan Lam v. City of Los Banos,
976 F.3d 986 (9th Cir. 2020)

8

Vaughan v. Cox,
343 F.3d 1323 (11th Cir. 2003)

6

Villanueva v. California,
__ F.3d __, 2021 WL 280756 (9th Cir. 2021)

6-7

United States Constitution
United States Constitution,
Amendment IV
Amendment XIV

11
3, 8, 9

1
STATEMENT OF IDENTITY AND INTEREST OF THE AMICUS CURIAE 1/
The International Municipal Lawyers Association (“IMLA”) is a non-profit,
nonpartisan professional organization consisting of more than 2,500 members.
IMLA serves as an international clearinghouse of legal information and cooperation
on municipal legal matters. Established in 1935, IMLA is the oldest and largest
association of attorneys representing United States municipalities, counties, and
special districts. IMLA’s mission is to advance the responsible development of
municipal law through education and advocacy, by providing the collective
viewpoint of local governments around the country on legal issues before the United
States Supreme Court, the United States Courts of Appeals, and in state supreme
and appellate courts.
Amicus curiae IMLA’s members represent all levels of local government,
including law enforcement agencies. IMLA and its members have an interest in
ensuring clarity of the law concerning imposition of liability on public entities,
which allows accurate fiscal planning, avoids prolonged litigation, and permits
informed training that might avoid entanglement in litigation altogether.
_________________♦_________________
STATEMENT OF THE CASE
Amicus curiae IMLA joins in and refers to the Statement in the petition for
writ of certiorari (“Pet.”) at pages 5-12.
_________________♦_________________

1/This

brief was not authored in whole or in part by counsel for any party. No person or entity other

than amicus curiae made a monetary contribution towards preparation of this brief. The parties

were timely notified of IMLA’s intention to file this brief. Petitioners consented to the filing of the
brief, and Respondent did not.

2
SUMMARY OF ARGUMENT
This case presents a fundamental question that has long divided circuit
courts: Whether a victim-passenger who is unintentionally shot by a police officer
during an effort to stop the vehicle’s driver is “seized” for purposes of the Fourth
Amendment. Decisions from the First, Second, and Tenth Circuits hold that victimpassengers who are inadvertently harmed by the police do not have standing to
bring a Fourth Amendment claim because they were not the target of intentional
force. In stark contrast, the Third, Fourth, Fifth, Sixth, Ninth, and Eleventh
Circuits have concluded that such individuals do have a Fourth Amendment claim
regardless of whether they were the object of an officer’s use of force.
Here, a police officer intentionally shot at the driver of a vehicle that was
directly accelerating toward him in an effort to stop the driver from running over
his ride-along passenger and himself. An errant bullet accidentally shot and killed
the vehicle’s passenger, Shawn Joseph Jetmore Stoddard-Nunez. In the civil
litigation that followed, the Ninth Circuit reversed summary judgment in
Petitioners’ favor, but ignored the dispositive issue squarely raised by Petitioners—
that Stoddard-Nunez was not seized under the Fourth Amendment. In doing so, the
court ignored the threshold issue that it needed to decide before reaching excessive
force or qualified immunity, and glossed over a rupture in Fourth Amendment law
as to what “seizure” means.
This Court has already recognized in Plumhoff v. Rickard, 572 U.S. 765, 778
n.4 (2014) that there is disagreement among the circuit courts as to whether a
passenger in Stoddard-Nunez’s situation can recover under a Fourth Amendment
theory. That circuit split has only grown more entrenched since Plumhoff was
decided and shows no sign of resolving itself. And because the conflict stems from
competing understandings of this Court’s case law, only this Court can restore

3
uniformity on an essential question regarding the meaning of the Fourth
Amendment.
Review is also warranted because the need for clarity in the law transcends
the interests of the parties. The question presented is fundamental to the Fourth
Amendment. Without knowing what constitutes a “seizure,” neither citizens nor
police officers can know whether an “unreasonable” seizure has occurred. The issue
has broad implications for both civil and criminal law. On the civil side, the
standard by which officers’ inadvertent application of force is judged—as a Fourth
Amendment seizure or a Fourteenth Amendment substantive due process
violation—hugely impacts the scope of civil liability for local government entities.
And for criminal cases, a court’s decision whether to suppress evidence may involve
an examination of whether and when a defendant was actually seized.
This Court’s intervention is needed to resolve a circuit split that is of great
legal and practical importance. A local government’s liability under the Fourth
Amendment should not depend on geography, but that is precisely what has
happened and only this Court can resolve the conflict in the circuits. It is essential
that local public entities understand the nature and extent of potential liability that
they face, particularly where, as here, cases involving the inadvertent application of
force arise with considerable frequency. IMLA joins in Petitioners’ request to grant
the writ of certiorari.
_________________♦_________________

4
WHY REVIEW IS WARRANTED
I.

The Fourth Amendment Question Presented Is The Subject Of A
Persistent And Acknowledged Split Among The Courts Of Appeals.
A.

The First, Second, and Tenth Circuits Hold That VictimPassengers Inadvertently Harmed By The Use Of Force
Directed At Another Party Cannot Recover Under A Fourth
Amendment Theory.

Three courts of appeal have decided that victim-passengers who are harmed
by a police officer’s unintentional application of force do not have standing to bring
a Fourth Amendment Claim. Those decisions all rely upon this Court’s decision in
Brower v. County of Inyo, 489 U.S. 593, 597 (1989), which concluded that a “seizure”
under the Fourth Amendment occurs “only when there is a governmental
termination of freedom of movement through means intentionally applied.” 2/
In Landol-Rivera v. Cruz Cosme, 906 F.2d 791, 795-96 (1st Cir. 1990), the
First Circuit held that a hostage-passenger who was inadvertently shot during
police pursuit of a robbery suspect was not seized for purposes of the Fourth
Amendment because “[i]t is intervention directed at a specific individual that
furnishes the basis for a Fourth Amendment claim.”
The Second Circuit adopted the same approach in Medeiros v. O’Connell, 150
F.3d 164, 166 (2d Cir. 1998), which involved the accidental shooting of a hostagepassenger in an attempt to stop a driver who had commandeered the vehicle. The
court recognized that, under Brower, a Fourth Amendment seizure analysis
requires consideration of who was the intended target of the force. Id. at 168
2/Brower’s

interpretation is rooted in the origins and purpose of the amendment, which were

principally directed towards “writs of assistance” and “did not involve unintended consequences of
government action.” 489 U.S. at 596.

5
(“[W]here the hostage is hit by a bullet intended for the hostage-taker, the mishap is
the ‘unintended consequence[ ] of government action,’ and the governing principle is
that such consequences cannot ‘form the basis for a fourth amendment violation,’”)
alteration in original.
The Tenth Circuit came to a similar conclusion in Childress v. City of
Arapaho, 210 F.3d 1154, 1156-57 (10th Cir. 2000), holding that two hostagepassengers in a vehicle being pursued by the police were not seized when police
fired shots at the vehicle, inadvertently harming the passengers.
Courts apply the same analysis in factually analogous innocent bystander
cases. For instance, while the Eighth Circuit has not addressed the question in the
passenger context, it has decided that “bystanders are not seized for Fourth
Amendment purposes when struck by an errant bullet in a shootout.” Moore v.
Indehar, 514 F.3d 756, 760 (8th Cir. 2008) (plaintiff “must show that [defendant]
intended to seize [him] through the means of firing his weapon at [plaintiff] to
establish a Fourth Amendment claim.”) The Fourth Circuit came to a similar
conclusion in Rucker v. Harford County, 946 F.2d 278, 281 (4th Cir. 1991), holding
that an officer firing at a vehicle did not seize a person outside the vehicle whom he
inadvertently shot. 3/
B.

The Third, Sixth, Ninth, and Eleventh Circuits Embrace The
Opposite Rule.

Other circuits have decided that passengers in Stoddard-Nunez’s situation
can recover under a Fourth Amendment theory. See, e.g., Davenport v. Borough of
Homestead, 870 F.3d 273, 279 (3d Cir. 2017) (“[A] passenger shot by an officer
3/An

unpublished decision from the D.C. Circuit came to the same conclusion, in a case involving an

innocent bystander inadvertently shot by an officer while sitting in her car. Emanuel v. District of

Columbia, 224 Fed. Appx. 1, *1 (D.C. Cir. 2007) (citing Landol-Rivera and Childress with approval).

6
during the course of a vehicular pursuit may seek relief under the Fourth
Amendment.”); Vaughan v. Cox, 343 F.3d 1323, 1328 (11th Cir. 2003) (“[B]ecause he
did not intend to shoot [the passenger], [the officer] contends that [the passenger]
did not suffer a Fourth Amendment seizure. We disagree.”); Fisher v. City of
Memphis, 234 F.3d 312, 318-19 (6th Cir. 2000) 4/ (“By shooting at the driver of the
moving car, [the officer] intended to stop the car, effectively seizing everyone inside,
including the Plaintiff.”) Decisions in these circuits generally rely on this Court’s
decision in Brendlin v. California, 551 U.S. 249, 251, 255 (2007), a suppression case
which held that when a traffic stop occurs, the passenger is also seized because
“during a traffic stop an officer seizes everyone in the vehicle, not just the driver.”
Most recently, after the filing of Petitioners’ petition, the Ninth Circuit
decided in Villanueva v. California, __ F.3d __, 2021 WL 280756 (9th Cir. 2021) that
a passenger, who was accidentally struck by a bullet intended to stop the driver of a
vehicle, had a cognizable Fourth Amendment claim. The court distinguished
Childress, Medeiros, and Landol-Rivera on the grounds that those cases were all
pre-Brendlin and that they addressed a “different situation where the passenger
was also a hostage and the officers were trying to rescue the passenger, not arrest
him.” Id. at *6.

4/Fisher

distinguished Claybrook v. Birchwell, 199 F.3d 350 (6th Cir. 2000)—which held in the

bystander context that “persons collaterally injured by police conduct who were not intended targets
of an attempted official ‘seizure’” do not have a Fourth Amendment claim—on the basis that the
plaintiff in that case was not a passenger, but instead was hiding in a parked car. But this

distinction does not resolve the fundamental Fourth Amendment question—what qualifies as an
involuntary seizure—and if anything, compounds confusion in the law.

7
C.

The Court Of Appeals’ Confusion Is Rooted In Competing
Interpretations Of This Court’s Precedent.

The Ninth Circuit’s suggestion in Villanueva that any purported circuit split
has been resolved by this Court’s decision in Brendlin, does not withstand scrutiny.
If anything, the divide has only grown more entrenched since this Court first
identified the split in Plumhoff, 572 U.S. at 778, n.4, seven years after Brendlin was
decided.
Brendlin’s conclusion that a passenger in a stopped vehicle may bring a
suppression motion certainly does not bridge the divide. District courts in the First
and Second Circuit have discussed and correctly rejected the notion that Brendlin
implicitly overruled decisions in their circuits limiting the scope of the Fourth
Amendment in the passenger context. See, e.g., Fagre v. Parks, 2020 WL 1066977,
*5 (D. Me. 2020), aff’d __ F.3d __ (1st Cir. 2021) (“The Supreme Court’s recognition
in Brendlin that traffic stops ‘intentionally’ seize all occupants of a vehicle does not
mean an officer’s gunshot ‘intentionally’ seizes a victim he or she does not aim at in
the first place.”); Cox v. Village of Pleasantville, 271 F. Supp. 3d 591, 605 (S.D.N.Y.
2017) (Brendlin does not “establish that the intentional use of force directed at a
specific individual within the vehicle, i.e., the driver, gives rise to a Fourth
Amendment claim on behalf of all of the passengers.”)
Villanueva’s attempted elision of the circuit split by distinguishing hostages
from other passengers is also unavailing. For purposes of Fourth Amendment
jurisprudence, it is a distinction without a difference. Even if officers are arguably
acting on hostages’ behalf by trying to liberate them, that does not change the
fundamental legal question that remains unresolved—whether the unintentional
application of force can nonetheless result in a seizure. Villanueva also disregards
the basis for the First, Second, and Tenth Circuit’s rulings, which was grounded in

8
the principle, articulated in Brower, 489 U.S. at 596, that the Fourth Amendment is
intended to address the ‘“misuse of power,’” not its “accidental effects . . . .” See, e.g.,
Medeiros, 150 F.3d at 169 (“We hold that no Fourth Amendment seizure occurred in
the present case, because the police did not intend to restrain [the victim].”) That
principle is not limited to rescue attempts, which is underscored by the application
of Landol-Rivera and Childress outside the hostage context. See, e.g., Fagre, 2020
WL 1066977, *2-4 (passenger-victim was companion of driver breaking into
residences); Jurado v. Tritschler, 2020 WL 209857, *3 (D. Colo. Jan. 14, 2020)
(passenger-victim was allegedly “considered a threat” to officers).
At bottom, Fourth Amendment law in the inadvertent application of force
context is riven because the Courts of Appeals have opposing views of the scope and
reach of this Court’s precedent. Only this Court can provide the necessary guidance
to resolve such discord in the law.
II.

The Question Presented Is Recurring And Spawns Protracted
Litigation That Increases Costs To Public Entities, Making It
Difficult To Assess And Plan For Potential Liability.
As the underlying case illustrates, resolution of this issue can have profound

consequences on potential liability of public employees, and correspondingly, public
employers. Persistent confusion in the law makes it difficult in many cases for
public entities to assess potential liability with any degree of certainty. That is
particularly true where, as here, the standard by which officers’ inadvertent
application of force is judged—as Fourth Amendment “unreasonable use of force”
versus a Fourteenth Amendment “shock the conscience” violation—dramatically
impacts the scope of civil liability for local government entities. See Tan Lam v.
City of Los Banos, 976 F.3d 986, 1003 (9th Cir. 2020) (comparing standards and
recognizing circumstances that rise to the level of a Fourth Amendment violation

9
may not support a Fourteenth Amendment claim, which requires evidence that the
officer acted “‘with a purpose to harm unrelated to legitimate law enforcement
objectives.’”)
While IMLA believes that the inadvertent application of force is more
appropriately evaluated under a substantive due process framework, more than
anything, there needs to be a clear rule. And if the question of whether there is a
seizure turns on (1) the role of the passenger—hostage, innocent bystander,
unknown passenger, or accomplice, or (2) status of the vehicle—stationary, fleeing,
or presenting a direct threat to officers, it is important for local government entities
to understand those distinctions as well.
Fiscal planning for litigation is difficult in the best of circumstances, with
local entities having to set reserves for both liability and defense costs at the early
stages of a case, but uncertainty as to something so fundamental as to whether a
Fourth Amendment claim may be maintained in the first place, makes the task
infinitely harder. Moreover, uncertainty in fiscal planning for litigation has a
deleterious impact on the budgeting process as a whole, that affects municipal
decision-making across a broad spectrum of public services. Funds that must be
reserved for potential liability are necessarily unavailable for providing fire
protection, road maintenance, building inspection and the like.
In addition, as the sheer volume of cases concerning the viability of Fourth
Amendment claims in the victim-passenger context illustrates, uncertainty in the
law spawns frequent and protracted litigation. In those jurisdictions where there is
no controlling circuit precedent, the parties will necessarily have an incentive to
fully litigate the issue. And even in those jurisdictions where precedent on the issue
is clearer, the stakes are high enough and the distinctions drawn in the case law
murky enough to prompt exhaustion of all avenues of review, whether it be seeking

10
en banc consideration, or, ultimately, review by this Court. The net result of this
uncertainty is to drive up litigation costs as a whole, and consume already strained
judicial resources.
Section 1983 litigation is a fact of life for every local public entity in the
country. Rules concerning imposition of liability under section 1983 impact the dayto-day operations of local government because governmental decision-making is
directly impacted by the nature and extent of potential liability. It is essential that
the Court provide guidance regarding this critical question of Fourth Amendment
law. Until it does so, local public entities will face uncertainty that adversely
affects the ability to plan for potential liability and increases litigation costs, all to
the detriment of the citizens they serve.
III.

This Case Is An Ideal Vehicle To Resolve The Question Presented.
Finally, this case presents a clean vehicle to decide a critical question of

Fourth Amendment law. The question presented was properly preserved and is
squarely posed. The Petitioners expressly urged below that they were entitled to
judgment because Stoddard-Nunez had not been “seized” within the meaning of the
Fourth Amendment.
And despite the frequency with which the question presented arises, it will
rarely be teed up so cleanly as in the Petition here. Many cases present messier
questions of fact (where, for instance, it is disputed whether the victim-passenger
was a target of the application of force). And many courts will choose to resolve
excessive force cases at step two of the qualified immunity analysis (whether the
right is clearly established) rather than, as the courts below did, at step one
(whether there is a constitutional right at all).

11
Given that this issue is the subject of persistent confusion among the circuit
courts, the Court should use this particularly appropriate case to decide this
important question of Fourth Amendment law.
_________________♦_________________
CONCLUSION
For the foregoing reasons, Amicus Curiae IMLA respectfully joins in
Petitioners’ request that the petition for writ of certiorari should be granted.
Respectfully submitted,
Timothy T. Coates
Counsel of Record
Nadia A. Sarkis
GREINES, MARTIN, STEIN & RICHLAND LLP
5900 Wilshire Boulevard, 12th Floor
Los Angeles, California 90036
Telephone: (310) 859-7811
Facsimile: (310) 276-5261
E-mail: tcoates@gmsr.com
Counsel for Amicus Curiae International Municipal
Lawyers Association
February 24, 2021

